No. 19-730
In the Supreme Court of the United States
DeRay Mckesson,
Petitioner
v.
John Doe,
Respondent

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae National Police Association Supporting Respondent contains 4,590 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 7, 2020

James Bopp, Jr.
Counsel of Record
THE BOPP LAW FIRM, PC
The National Building
1 South Sixth Street
Terre Haute, IN 47807
812/232-2434 telephone
812/235-3685 facsimily
jboppjr@aol.com
Counsel for Amicus Curiae

